No. 21-53

IN THE

SUPREME COURT OF THE UNITED STATES

JAMES DALE HOLCOMBE,
Petitioner,
v.
STATE OF FLORIDA,
Respondent.

On Petition for Writ of Certiorari
to the Florida Fifth District Court of Appeal

CERTIFICATE OF COMPLIANCE WITH THE WORD LIMITATIONS

I, Michael Ufferman, member of the Bar of this Court, pursuant to Rule 33.1(h),
hereby certify that the Petitioner’s Reply to Brief in Opposition, in the above-entitled
case, complies with the applicable word limitation. The number of words in the
document is 2,654.
Respectfully submitted,
/s/ Michael Ufferman
MICHAEL UFFERMAN
Michael Ufferman Law Firm, P.A.
2022-1 Raymond Diehl Road
Tallahassee, Florida 32308
(850) 386-2345/fax (850) 224-2340
FL Bar No. 114227
Email: ufferman@uffermanlaw.com
COUNSEL FOR THE PETITIONER

